                                                                  Issue Date
                                                                               July 29, 2009
                                                                  Audit Report Number
                                                                           2009-LA-1014




TO:         K.J. Brockington, Director, Los Angeles Office of Public Housing, 9DPH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the City of Long Beach, California, Did Not
         Adequately Conduct Housing Quality Standards Inspections

                                    HIGHLIGHTS

 What We Audited and Why

      We audited the Housing Authority of the City of Long Beach’s (Authority) Section 8
      Housing Choice Voucher program as part of our fiscal year 2008 annual audit plan focus
      on tenant-based Section 8 rental assistance programs. The Authority was selected based
      on its having received low housing quality standards indicator scores for fiscal years
      2006 and 2007 under the U.S. Department of Housing and Urban Development’s (HUD)
      Section Eight Management Assessment Program in addition to a lack of recent on-site
      reviews by HUD.

      The objective of the audit was to determine whether the Authority conducted housing
      quality standards inspections in accordance with HUD’s rules and regulations.

 What We Found
      The Authority did not adequately enforce HUD’s housing quality standards. Of the 66
      program units statistically selected for inspection, 56 did not meet minimum housing
      quality standards, and 29 of those units were in material noncompliance with housing
      quality standards. Based on our statistical sample, we estimate that over the next year,
      HUD will pay more than $5.9 million in housing assistance for units with material
      housing quality standards deficiencies.
What We Recommend

     We recommend that the Director of HUD’s Los Angeles Office of Public Housing
     require the Authority to (1) implement adequate procedures and controls regarding its
     inspection process to ensure that all units meet HUD’s housing quality standards to
     prevent $5.9 million in program funds from being spent on units that are in material
     noncompliance with the standards, (2) create policies and procedures regarding quality
     control inspections, and (3) verify that the applicable owners have taken appropriate
     corrective action regarding the housing quality standards deficiencies identified during
     our inspections or take enforcement action.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response


     We provided the Authority a draft report on June 22, 2009, and held an exit conference
     with the Authority’s officials on July 7, 2009. The Authority provided written comments
     on July 14, 2009. It generally agreed with our report.

     The complete text of the auditee’s response, along with our evaluation of that response,
     can be found in appendix B of this report.




                                              2
                             TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
        Finding 1: The Authority’s Section 8 Units Did Not Meet Housing Quality   5
                   Standards

Scope and Methodology                                                             13

Internal Controls                                                                 15

Appendixes

   A.   Schedule of Funds to Be Put to Better Use                                 17
   B.   Auditee Comments and OIG’s Evaluation                                     18
   C.   Schedule of Units in Noncompliance with Housing Quality Standards         29
   D.   Criteria                                                                  31




                                              3
                      BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Long Beach (Authority) is a public agency created by the
Long Beach City Council in 1969 to administer housing assistance programs for qualified
residents. The Authority is governed by an 11-member board of commissioners, comprised of
nine City Council members and two representatives elected by housing assistance benefit
recipients. The Authority’s administrative functions are directed and performed by City of Long
Beach (City) employees.

The Authority administers the City’s rental housing assistance programs. The Authority is one
of six City bureaus of the Community Development Department of the City of Long Beach,
which also include Housing Services, Neighborhood Services, Property Services, Workforce
Development, and Administration and Finance. The goal of the Authority and Housing Services
is to increase safe and affordable housing options, administer federal and special needs housing,
and provide programs to increase and support home ownership.

The Authority’s programs are designed to provide financial and technical assistance services to
low-income, elderly, and disabled residents of Long Beach so they can live with dignity in
decent, safe, and sanitary conditions. The Authority administers the following programs:
Housing Choice Voucher, Housing Opportunities for Persons Living with AIDS, Veteran’s
Affairs Supportive Housing, and Shelter Plus Care and homeless assistance in conjunction with
the health department’s Continuum of Care program.

The Authority is in partnership with more than 2,500 property owners and provides rental
assistance to more than 6,300 families in Long Beach. HUD’s approved budget authority for the
Authority’s program for fiscal years 2006, 2007, and 2008 was $60 million, $57.8 million, and
$54.5 million, respectively.

The objective of the audit was to determine whether the Authority conducted housing quality
standards inspections in accordance with HUD’s rules and regulations.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The Authority’s Section 8 Units Did Not Meet Housing
           Quality Standards
The Authority did not adequately enforce HUD’s housing quality standards. Of 66 program
units statistically selected for inspection, 56 units did not meet minimum housing quality
standards, and inspectors did not identify 176 preexisting deficiencies during the Authority’s
latest inspection. The Authority’s inspectors did not identify these deficiencies because the
Authority had not implemented adequate controls to ensure that all housing quality standards
deficiencies were detected during its inspections. As a result, it did not properly use its program
funds, and program tenants lived in units that were not decent, safe, and sanitary. Based on our
statistical sample, we estimate that over the next year, HUD will pay more than $5.9 million in
housing assistance on units with material housing quality standards deficiencies if inspection
procedures do not improve.



 HUD’s Housing Quality
 Standards Not Met


       From the 1,969 units that passed its last housing quality standards inspection from
       October 1 through December 31, 2008, we statistically selected 66 units for inspection.
       The 66 program units were inspected to determine whether the Authority ensured that its
       program units met HUD’s housing quality standards. The inspections took place between
       January 15 and February 25, 2009.

       Of the 66 units inspected, 56 (85 percent) had 267 housing quality standards deficiencies,
       including one unit with 16 deficiencies. Of the 267 deficiencies, 178 deficiencies (67
       percent) in 47 units predated the Authority’s latest inspection, but only two (1 percent) of
       those 178 deficiencies were included in the Authority’s latest inspection report. Thus
       inspectors did not identify 176 deficiencies during the Authority’s latest inspection. The
       following table categorizes the 267 housing quality standards deficiencies in the 56 units.




                                                 5
    Categories of deficiencies        Number of deficiencies      Number of units affected
  Electrical                                  43                            19
  Security                                    37                            24
  Fire exits                                  27                            19
  Range/stove                                 25                            20
  Smoke detector                              24                            16
  Window                                      23                            14
  Garbage and debris                          13                            12
  Water heater                                11                            8
  Tub or shower in unit                       10                            7
  Other interior hazards                       9                            8
  Exterior surface                             7                            7
  Floor                                        7                            6
  Sink                                         7                            7
  Mildew                                       6                            5
  Flush toilet in enclosed space               5                            4
  Site and neighborhood                        3                            3
  conditions
  Stairs, rails, and porches                     3                             3
  Crawl vents                                    3                             3
  Chimney/heating equipment                      2                             2
  Ceiling                                        1                             1
  Overall paint                                  1                             1
   Total number of deficiencies                 267

In addition, we considered 29 (44 percent) of the 66 units to be in material
noncompliance with HUD requirements. The materially deficient units had multiple
deficiencies per unit that predated the Authority’s last inspection (i.e., had existed for an
extended period) and/or contained deficiencies noted in a prior inspection that were not
corrected, creating unsafe living conditions. Overall, we identified 151 deficiencies that
predated the Authority’s last inspection among all 29 units that we deemed materially
deficient, including corrosion, electrical hazards, security issues, wood rot, advanced
mildew, inoperable break away bars on windows, badly worn carpet, and excessive
kitchen grease. By contrast, those units that were not considered to be materially
deficient had deficiencies such as inoperative smoke detectors, doors off hinges, and
furniture blocking fire exits, which may have occurred since the Authority’s last
inspection. In addition, 1 of the 29 materially deficient units had a deficiency that was
noted in a prior Authority inspection report but had not been corrected, despite having
been cited as “passed” on the follow-up inspection that the Authority conducted two
months before our inspection.

We provided our inspection results to the Authority’s Section 8 housing assistance
coordinator (inspection supervisor). Appendix C details the deficiencies found in each of



                                          6
    the 56 failed units, with an asterisk denoting which of the units were determined to be
    materially deficient.


Types of Violations


    Our inspector identified 43 electrical deficiencies in 19 of the program units inspected.
    Examples of electrical violations are inoperative ground fault interrupters, exposed
    wiring, inoperative/insecure lighting, reversed polarity in outlets, open grounds, missing
    main service panel cover, and missing face plates. The following pictures are examples
    of electrical deficiencies identified in the units inspected.




    Left – exposed electric meter; right – exposed wiring without a face plate

    In addition, our inspector identified 37 security violations in 24 of the program units
    inspected. Examples of security violations are missing and inoperative locks and/or dead
    bolts on doors, door frame split, hollow doors, unfit closures, double keyed dead bolts on
    doors, and door strikers missing. The following picture is an example of the security
    deficiencies identified in the program units inspected.




                                             7
                         Door frame split and deadbolt missing striker

Further, there were 27 fire exit deficiencies in 19 of the program units inspected.
Examples of fire exit violations are windows blocked by bed furniture and inoperative
break away bars on windows. The following picture is an example of fire exit
deficiencies identified in the program units.




       Bunk bed and dresser in front of window blocking the fire exit




                                        8
Our inspector identified other violations including garbage and debris in and around
Authority units, missing grout in the tub/shower, water heater cabinets being used for
personal storage, water heaters improperly vented or connected, advanced mildew in
units, loose toilet bases, and missing/damaged screens on outside crawl vents. The
following pictures are examples of other deficiencies identified in the program units
inspected.




       Garbage and debris around units




       Damaged wall behind water heater




                                         9
            Excessive grease on stove, wall, and refrigerator




            Moisture from continuous leak caused wood rot, holes, and mold/mildew in and
            around the sink area

Inadequate Controls


     The Authority’s inspectors did not identify the deficiencies noted above because the
     Authority had not implemented adequate controls to ensure that its program units met
     HUD’s housing quality standards. The Authority’s administrative plan states that it
     complies with HUD’s Section 8 regulations as well as all applicable federal and local


                                            10
    law. However, the Authority’s failure to identify 176 preexisting deficiencies found in
    our inspections demonstrates its noncompliance with its own administrative plan. The
    Authority needs to modify its written procedures and controls to ensure that its program
    units meet housing quality standards.

    We observed the Authority’s inspection process and determined that inspections were not
    always accurate and complete. Specifically, the Authority’s inspectors failed to conduct
    complete annual inspections in contrast to those inspections performed as part of the
    initial move-in. Annual inspections did not always include testing for proper window
    functionality, window locks, proper electrical grounding, and fire exits. The Authority’s
    written procedures should clearly establish the process for conducting housing quality
    standards inspections and ensure that both annual and initial inspections are conducted in
    the same manner.

    In addition, the Authority conducted more quality control inspections than HUD requires,
    and its quality control inspector (also the inspection supervisor) identified additional
    deficiencies that the inspectors missed during their annual inspections. Although the
    Authority conducts informal meetings with its inspectors at the end of the month
    regarding the deficiencies noted in quality inspections, there were no specific written
    policies or procedures for holding the inspector accountable for repeatedly overlooking
    deficiencies. We also noted instances in which the Authority did not conduct proper
    follow-up inspections to ensure that corrective actions were taken regarding the
    deficiencies noted in the quality control inspections. The Authority had no specific
    written procedures and controls over the tracking and follow up of these quality control
    violations to ensure follow up inspections to ensure violations were corrected. The
    Authority’s failure to conduct proper follow-up on the failed quality control inspections
    contributed to a deficient control environment and units not being in decent, safe, and
    sanitary condition.

Conclusion

    The Authority’s tenants were subjected to health- and safety-related deficiencies, and the
    Authority did not properly use its program funds when it failed to ensure that units
    complied with HUD’s housing quality standards. If the Authority implements adequate
    procedures and controls regarding its unit inspections to ensure compliance with HUD’s
    housing quality standards, we estimate that more than $5.9 million in future housing
    assistance payments will be spent on units that are decent, safe, and sanitary. The
    complete explanation of our calculations can be found in the Scope and Methodology
    section of this report.




                                            11
Recommendations


  We recommend that the Director of HUD’s Los Angeles Office of Public Housing require
  the Authority to

  1A. Implement adequate written procedures and controls regarding its inspection process
      to ensure that all units meet HUD’s housing quality standards, and ensure inspectors
      follow the same process for all types of inspections, to prevent more than $5.9
      million in program funds from being spent on units that are in material
      noncompliance with the standards.

  1B. Create written policies and procedures regarding quality control, including proper
      follow-up procedures for failed quality control inspections and written guidelines for
      corrective action for inspectors who repeated overlook violations.

  1C. Verify that the applicable owners have taken appropriate corrective action for the
      housing quality standards violations identified during our inspections or take
      enforcement action. If appropriate actions were not taken, the Authority should
      abate the rents or terminate the housing assistance payments contracts.




                                          12
                         SCOPE AND METHODOLOGY

We performed our on-site audit work from November 2008 through March 2009 at the
Authority’s office in Long Beach, California. The audit generally covered the period October 1,
2007, through December 31, 2008. We expanded our audit period as needed to accomplish our
objectives. We reviewed guidance applicable to Section 8 housing quality standards, performed
on-site inspections with a qualified HUD Office of Inspector General (OIG) inspector, and
interviewed applicable Authority supervisors and staff.

To accomplish our audit objectives, we

       Reviewed applicable HUD regulations, including 24 CFR (Code of Federal Regulations)
       Part 982 and Housing Choice Voucher Guidebook 7420.10G.

       Reviewed the Authority’s administrative plan, financial independent public accountant
       audit reports for 2007, staff listing, annual contributions contract and annual plan with
       HUD, and organizational chart.

       Interviewed personnel from the HUD Office of Public Housing, Los Angeles field office,
       to obtain background information on the Authority’s housing quality standards
       performance.

       Interviewed Authority supervisors and staff to determine their job responsibilities and
       their understanding of housing quality standards.

       Reviewed Authority data from HUD’s Public Housing Information Center system.

       Analyzed databases provided by the Authority to obtain a random sample of units.

       Conducted inspections of 66 statistically selected units with a qualified HUD OIG
       inspector and recorded and summarized the inspection results provided.

We statistically selected a sample of 66 of the program units to determine whether the Authority
ensured that its units met housing quality standards. The statistical sample was obtained from
1,969 units that passed inspection by the Authority from October 1 through December 31, 2008.
We obtained the sample based on a confidence level of 90 percent, a precision level of 10
percent, and an assumed error rate of 50 percent. Eighty-six additional sample units were
selected to be used as replacements if necessary.

Our sampling results determined that 29 of the 66 units (44 percent) materially failed to meet
HUD's housing quality standards. We determined that the 29 units were in material
noncompliance because they had 151 deficiencies that predated the Authority’s latest inspection
and created unsafe living conditions. In addition, one unit had a deficiency that was noted in a
prior Authority inspection report but had not been corrected. All units were ranked, and we used


                                                13
auditors’ judgment to determine the material cutoff point. Material failed units were those that
had multiple preexisting deficiencies and/or exigent health and safety violations that predated the
Authority’s previous inspection.

Projecting the results of the 29 units that were in material noncompliance with housing quality
standards to the population of 1,969 Section 8 voucher program units indicates that 865 or 43.9
percent of these units contained deficiencies that predated the Authority’s latest inspection and
created unsafe living conditions. The sampling error is plus or minus 9.9 percent. In other
words, we are 90 percent confident that the number of units in unacceptable condition lies
between 34.1 and 53.8 percent of the population. This equates to an occurrence of between 671
and 1,059 units of the 1,969 units of the population.

       The lower limit is 34.1 percent x 1,969 units = 671 units in noncompliance with minimum
       housing quality standards.

       The point estimate is 43.9 percent x 1,969 units = 865 units in noncompliance with
       minimum housing quality standards.

       The upper limit is 53.8 percent x 1,969 units = 1,059 units in noncompliance with
       minimum housing quality standards.

Using the lower limit and the average annual housing assistance payments for the population
based on the Authority’s housing assistance payment register, dated October through December
2008, we estimate that the Authority will spend at least $5,912,852 (671units x $8,812, average
annual housing assistance payment) for units that are in material noncompliance with housing
quality standards. This estimate is presented solely to demonstrate the annual amount of Section
8 program funds that could be put to better use on decent, safe, and sanitary housing if the
Authority implements our recommendations.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                14
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are achieved:

       Effectiveness and efficiency of operations,
       Reliability of financial reporting,
       Compliance with applicable laws and regulations, and
       Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls


       We determined that the following internal controls were relevant to our audit objectives:

              Program operations - Policies and procedures that management has implemented
              to reasonably ensure that a program meets its objectives.

              Validity and reliability of data - Policies and procedures that management has
              implemented to reasonably ensure that valid and reliable data are obtained,
              maintained, and fairly disclosed in reports.

              Compliance with laws and regulations - Policies and procedures that management
              has implemented to reasonably ensure that resource use is consistent with laws
              and regulations.

              Safeguarding resources - Policies and procedures that management has
              implemented to reasonably ensure that resources are safeguarded against waste,
              loss, and misuse.

       We assessed the relevant controls identified above.

       A significant weakness exists if internal controls do not provide reasonable assurance that
       the process for planning, organizing, directing, and controlling program operations will meet
       the organization’s objectives.




                                                15
Significant Weaknesses

     Based on our review, we believe that the following item is a significant weakness:

            The Authority lacked sufficient procedures to ensure that unit inspections
            complied with HUD minimum housing quality standards.




                                              16
                                      APPENDIXES

Appendix A

                            SCHEDULE OF
                    FUNDS TO BE PUT TO BETTER USE

                    Recommendation                            Funds to be put
                        number                                to better use 1/
                          1A                                    $ 5,912,852


1/ Recommendations that funds be put to better use are estimates of amounts that could be used
   more efficiently if an OIG recommendation is implemented. These amounts include
   reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
   implementing recommended improvements, avoidance of unnecessary expenditures noted in
   preaward reviews, and any other savings that are specifically identified. In this instance, if
   the Authority implements our recommendations, it will cease to incur program costs for units
   that are not decent, safe, and sanitary. Instead, it will expend those funds for units that meet
   HUD’s standards. Once the Authority successfully improves its controls, this will be a
   recurring benefit. To be conservative, our estimate reflects only the initial year of this
   benefit.




                                                17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         18
Comment 1




Comment 2




            19
20
21
22
Comment 3


Comment 4



Comment 5



Comment 6



Comment 7



Comment 8


Comment 3


Comment 9




Names of occupants were redacted for privacy reasons.




                                          23
Comment 10

Comment 11


Comment 12



Comment 13




Comment 5




Comment 14


Comment 15




Names of occupants were redacted for privacy reasons.




                                          24
Comment 5




Comment 13




Comment 13

Comment 16


Comment 17



Comment 5




Names of occupants were redacted for privacy reasons.




                                          25
                            OIG Evaluation of Auditee Comments

Comment 1: Although the Authority generally concurred with the findings, it stated it has
           ensured families occupying its units are living in decent, safe, and sanitary
           conditions. However, in a number of cases, our housing quality standards
           inspections, conducted by a certified OIG inspector, demonstrated the contrary.
           In our sample of 66 Housing Choice Voucher unit inspections, we identified 178
           deficiencies that predated the Authority's latest inspections, causing the units to
           fail housing quality standards, and 29 units were determined to be materially
           deficient.

Comment 2: The Authority disagreed with several of the deficiencies noted in the OIG's
           inspections, including Ground Fault Interrupters (GFIs) receptacle testing,
           security issues, and garage issues. These issues have been addressed in comments
           3 through 17 below.

Comment 3: The HUD Housing Inspection Manual, Section 6.3, Condition of Roof and
           Gutters, states, "The purpose of gutters and downspouts is to channel water away
           from the exterior walls and foundation so that there is no water damage to the
           building. Deterioration of the gutters and downspouts (e.g., rotting or missing
           pieces) should fail if it causes significant amounts of water to enter the interior of
           the unit (e.g. by rotting an exterior wall). Deterioration that does not affect the
           interior of the unit should pass, but be brought to the attention of the owner."
           After further review of the criteria, inspection photos, and inspection reports we
           will give the Authority the benefit of the doubt and remove the violations, as there
           is no sign of interior damage to the applicable units. We have adjusted the audit
           report to reflect this change.

Comment 4: The Authority stated that unfit closure to an interior door is not necessary because
           there was an outer metal security door. However, the Authority’s Administrative
           Plan, Chapter 10, Section B, Doors, #2, requires that "All interior doors must have
           a doorstop, no holes, all trim intact, and be capable of being opened easily without
           the use of a key or special knowledge."

Comment 5: The Authority claimed the GFI tester cannot be used if the GFI unit is installed
           over a 2 prong system. However, that is the problem; as the GFI devices were not
           properly installed and grounded, they will not work as designed. The manner in
           which the GFIs are connected gives the tenants a false sense of security that they
           will be protected from an electric shock. HUD Guidebook 7420.10G, page 10-8
           states, "The PHA must be satisfied that the electrical system is free of hazardous
           conditions, including exposed, uninsulated, or frayed wires, improper
           connections, improper insulation or grounding of any component of the system..."

Comment 6: Although we agree that the Housing Inspection Manual, Section 8.4, Garbage and
           Debris, states a violation would be “a level of accumulation beyond the capacity
           of an individual to pick up within an hour or two." After reviewing the inspection



                                               26
               report, inspection photos, and criteria we disagree with the Authority, as it would
               take an average person more than an hour or two to dispose of the garbage and
               debris.

Comment 7: We disagree with the Authority. 24 CFR 982.401(g)(2)(i), states "Ceilings, walls,
           and floors must not have any serious defects such as severe bulging or leaning,
           large holes, loose surface materials, severe buckling, missing parts, or other
           serious damage." In addition, HACLB's Administrative Plan, Chapter 10, Section
           B, Ceilings and Walls, #3, states "In areas where plaster or drywall is sagging,
           severely cracked, or otherwise damaged, it should be replaced or restored to a like
           new condition." Based on the foregoing requirements, the ceiling of the garage
           should not have sections missing.

Comment 8: The Authority’s Administrative Plan, Chapter 10, Section B, Doors, #2, requires
           that "All interior doors must have a doorstop, no holes, all trim intact, and be
           capable of being opened easily without the use of a key or special knowledge."
           The Authority is required to follow and enforce its own administrative plan,
           which includes all interior doors.

Comment 9: 24 CFR 982.401(c)(1)(i), states that "The dwelling unit must have suitable space
           and equipment to store, prepare, and serve foods in a sanitary manner." In
           addition, 24 CFR 982.401(m)(1) states, "The dwelling unit and its equipment
           must be in sanitary condition." Even though other storage areas are available in
           the unit, the tenants are using the area under the sink to store their personal items,
           and it should therefore be maintained in a sanitary condition.

Comment 10: This deficiency was not considered a violation nor counted as a violation. It was
            noted as an inconclusive item which required the Authority to follow-up on.

Comment 11: The Authority’s Administrative Plan, Chapter 10, Section B, Egress, #1and 2,
            states "Egresses must be free of debris, furniture, bicycles, or other obstruction,"
            and "All fire exits must be kept in good working condition and be clear of all
            debris." The tenants should be able to enter and exit all fire exits in case of
            emergencies.

Comment 12: The Authority’s Admin Plan, Chapter 10, Section B, Floors, #2 and 5, states that
            "Bathroom and kitchen floor surfaces shall be constructed and maintained so as to
            be substantially impervious to water and easy to maintain in a clean and sanitary
            condition," and "All floors should have some type of baseshoe, trim, or sealing for
            a 'finished look.'" In addition, 24 CFR 982.401(g)(2)(i), requires "Ceilings, walls,
            and floors must not have any serious defects such as severe bulging or leaning,
            large holes, loose surface materials, severe buckling, missing parts, or other
            serious damage." As a result, the criteria requires that linoleum floors be properly
            sealed, whether or not there is a tripping hazard.




                                                27
Comment 13: The Authority’s Administrative Plan, Chapter 10, Section D, Emergency Repair
            Items, states the lack of security for the unit is an emergency repair and must be
            corrected within 24 hours of notice by the inspector. In addition, 24 CFR
            982.401(d)(2)(iii), requires that "Dwelling unit windows that are accessible from
            the outside... must be lockable." As the second story windows were easily
            accessible from the exterior by even a short ladder, we have determined the
            criteria would require the windows to have operable locks for security reasons.

Comment 14: HUD’s Housing Inspection Manual, Section 8.6, Interior Stairs and Common
            Halls, requires interior stairs and common halls to be free from safety hazards to
            the occupant, such as inadequate lighting, and states “With respect to lighting, if
            there are sufficient lights present but the item still fails because bulbs are too dim
            or are burned out, suggest to the owner that the wattage of the bulbs be increased
            or that burned out bulbs be replaced." We note that the criteria still calls for a
            failure in these circumstances.

Comment 15: The Authority’s Administrative Plan, Chapter 10, Section B, Ceilings and Walls,
            #4, states that "In areas where plaster or drywall is sagging, severely cracked or
            otherwise damaged, it should be replaced or restored to a like new condition.
            Whenever an exterior wall is opened, if it is not insulated, it should be insulated."
            In addition, 24 CFR 982.401(g)(2)(iii), requires that "The exterior wall structure
            and surface must not have any serious defects such as serious leaning, buckling,
            sagging, large holes, or defects that may result in air infiltration or vermin
            infestation." The damage on the outer window sill is severe enough to be
            considered a violation.

Comment 16: The Authority’s Administrative Plan, Chapter 10, Section B, Site Conditions,
            states, "The property must be reasonably free of serious conditions which would
            endanger the health or safety of residents." In addition, 24 CFR 982.401(l) Site
            and Neighborhood (1) Performance requirement states, "The site and
            neighborhood must be reasonably free from disturbing noises and reverberations
            and other dangers to the health, safety, and general welfare of the occupants."
            However, after further review of the criteria, inspection photos, and inspection
            reports we will give the Authority the benefit of the doubt and remove the
            violation. We have adjusted the audit report to reflect this change.

Comment 17: The Authority’s Administrative Plan, Chapter 10, Section B, Site Conditions,
            states, "The property must be reasonably free of serious conditions which would
            endanger the health or safety of residents." In addition, 24 CFR 982 (g)(iv) states,
            "The condition and equipment of interior and exterior stairs, halls, porches,
            walkways, etc., must not present a danger of tripping and falling." The cracks and
            deteriorated seal around the pool area are a tripping hazard and deemed a
            deficiency.




                                                28
     Appendix C
                   SCHEDULE OF UNITS IN NONCOMPLIANCE
                     WITH HOUSING QUALITY STANDARDS
                                     Number of deficiencies per lettered category
Item number
               A   B   C   D    E    F   G   H   I   J   K     L   M   N   O   P   Q   R   S   T   U   V    Totals
      1*                                 2                                 1                           1       4
      2*                        1                                                              1   2           4
      3*                   11                    1                             1                       3      16
      4*       1            4        1       1           1         1       3           2               1      15
      5                                                                    2                                   2
      6                    1                                       1       1           3                       6
      7*                                 1           1   1     1   1           1       1                       7
      8                         1                                          1                                   2
      9*                   3    1            1                                                                 5
     10                                                                    1                                   1
     11            1                                                                   2           1           4
     12                                                            1                                           1
     13*                   1                         2   2                 2                   4       2      13
     14                                                                                                2       2
     15*           1                                                       1   1                   1   1       5
     16*               1   3             1       2   1             1       4   1       1           1          16
     17                                                  1         1                                           2
     18*                   1    1    4           1       1         1       2                                  11
     19                              1   1                         1       1                                   4
     20                                                                    1                                   1
     21                                      2                                                                 2
     22*                                 1                         1       1       1   1                       5
     23                              1                                                                         1
     24                                                                    1           2                       3
     25*                        1                                                  1       1                   3
     26*                                 1       1   1   1         2       1           3       1              11
     27                              1                                                             1           2
     28*                   2                     1                                                     2       5

                                         Category of deficiencies legend
A – Ceiling                                               M – Range/refrigerator
B – Chimney/heating equipment                             N – Roof/gutters
C – Crawl vents                                           O – Security
D – Electrical                                            P – Sink
E – Exterior surface                                      Q – Site and neighborhood conditions
F – Fire exits                                            R – Smoke detectors
G – Floor                                                 S – Stairs, rails, and porches
H – Flush toilet in enclosed space                        T – Tub or shower in unit
I – Garbage and debris                                    U – Water heater
J – Mildew                                                V – Window
K – Other interior
L – Overall paint                                            * Denotes unit determined to be materially deficient




                                                         29
 Item                               Number of deficiencies per lettered category
number    A   B   C   D    E   F     G    H   I    J   K    L   M    N   O    P   Q   R    S   T    U    V    Totals
 29                                           1                                            1                     2
 30*                  1        1                       1        1                 1   2             3    1      11
 31*                  2                       1                                                     1            4
 32                   1                       1                 1                                                3
 33                            1                                                                                 1
 34*                                          1                               1                1    1            4
 35*                           1                                         2                     1                 4
 36*                           1                                         2                               1       4
 37*              1        1   2                                2        2    1       1        1                11
 38*              1            1                                1                          1             1       5
 39*                  2                   1                              1                                       4
 40                                                             1                                                1
 41*                                          1                 1        1            1                          4
 42*                           2                                2             1                                  5
 43*                  1        1              1    1   1        1                              1                 7
 44                   1                                                                                          1
 45                                                                      1            1                          2
 46                   2        1                                                                         1       4
 47                            1                                                                                 1
 48                            1                                                                                 1
 49*                  2    1   3                                                                                 6
 50                   1                                         3                     1                          5
 51                            1                                                                                 1
 52*                                                                                  1                  2       3
 53                                                                      1                                       1
 54*                  1                                                               1                  3       5
 55                            2                                1         1           1                          5
 56*                   3                       1                          3                               2      9
Totals    1   2   3   43   7   27     7   5   13   6   9    1   25   0   37   7   3   24   3   10   11   23    267


                                          Category of deficiencies legend
A – Ceiling                                                M – Range/refrigerator
B – Chimney/heating equipment                              N – Roof/gutters
C – Crawl vents                                            O – Security
D – Electrical                                             P – Sink
E – Exterior surface                                       Q – Site and neighborhood conditions
F – Fire exits                                             R – Smoke detectors
G – Floor                                                  S – Stairs, rails, and porches
H – Flush toilet in enclosed space                         T – Tub or shower in unit
I – Garbage and debris                                     U – Water heater
J – Mildew                                                 V – Window
K – Other interior
L – Overall paint                                            * Denotes unit determined to be materially deficient




                                                           30
Appendix D

                                         CRITERIA
The following sections of the Code of Federal Regulations apply to housing quality standards
inspections:

24 CFR 982.153 states that the public housing authority must comply with the consolidated
annual contributions contract, the application, HUD regulations and other requirements, and its
program administrative plan.

24 CFR 982.305(a) states that the public housing authority may not give approval for the family
of the assisted tenancy or execute a housing assistance payments contract until the authority has
determined that the unit is eligible and has been inspected by the authority and meets HUD’s
housing quality standards.

24 CFR 982.401(a) identifies the housing quality standards for assisted housing, including
performance and acceptability criteria for key aspects of housing quality.

24 CFR 982.401(a)(3) requires that all program housing meet housing quality standards
performance requirements, both at commencement of assisted occupancy and throughout the
assisted tenancy.

24 CFR 982.404(a)(1) requires the owners of program units to maintain the units in accordance
with HUD’s housing quality standards.

24 CFR 982.404(a)(2) states that if the owner of the program unit fails to maintain the dwelling
unit in accordance with HUD’s housing quality standards, the authority must take prompt and
vigorous action to enforce the owner’s obligations. The authority’s remedies for such a breach
of the housing quality standards include termination, suspension, or reduction of housing
assistance payments and termination of the housing assistance payments contract.

24 CFR 982.405(a) requires public housing authorities to perform unit inspections before the
initial term of the lease, at least annually during assisted occupancy, and at other times as needed
to determine whether the unit meets the housing quality standards.

24 CFR 982.54(d)(22) states that the public housing authority administrative plan must cover
policies, procedural guidelines, and performance standards for conducting required housing
quality standards inspections.

Chapter 10, sections A-L, of the Authority’s administrative plan states that the Authority has
adopted local requirements of acceptability in addition to those mandated by HUD regulations
for housing quality standards. Sections A-L cover the following regarding housing quality
standards:




                                                 31
A.   Guidelines/types of inspections
B.   Housing quality standards and acceptability criteria
C.   General policy for inspections
D.   Emergency repair items
E.   Determination of responsibility
F.   Consequences if owner is responsible (nonemergency items)
G.   Consequences if family is responsible (nonemergency items)
H.   Initial/move-in housing quality standards inspection
I.   Annual housing quality standards inspection
J.   Special/complaint inspection
K.   Quality control inspection
L.   Disapproval of owner




                                           32
